      Department of Homeland Security




      Opportunities to Improve FEMA's Public Assistance 

          Preliminary Damage Assessment Process





OIG-12-79                                           May 2012

                          OFFICE OF INSPECfOR GENERAL
                              Department of Homeland Security



                                    MAY     2 2012
MEMORANDUM FOR:               Deborah Ingram




FROM:
                              Assi~tant Inspector General
                              Office of Emergency Man<lgement Oversight

SUBJECT:                      Opportunities To Improve fEMA's Public Assistance
                              Prl.!liminary Damage Assessment Process

Attached for your action is our final report, Opportunities To Improve FEMA's Public
Assistance Preliminary Damage Assessment Process. We incorpor<lted the formal
comments from the Office of Policy and Program Analysis in the final report.

The report contains three recommendations aimed at improving FEMA's Public
Assistance Preliminary Damage Assessment process. Your office concurred with one
recommendation. As prescribed by the Department of Homeland Security Directive
077-1, Follow-Up and Resolutions for the Office of Inspector General Report
Recommendations, within 90 days of the date of thiS memorandum, please provide our
office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation.
Also, please indude responsible parties and any other supporting documentation
necessary to inform us about the current status of the recommendation. Until your
response is received and evaluated, the recommendations will be considered open and
unresolved.

Consistent with our responSibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public disseminat ion.

Please call me with any question s, or your staff may contact John Kelly, Acting Deputy
Assistant Inspector General, Office of Emergency Management Oversight, at
(202) 254-4163.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary ............................................................................................................ 1 


Background ........................................................................................................................ 2 


Results of Review ................................................................................................................ 3 


           Thoroughness of the Preliminary Damage Assessment Process ............................ 3 


           State Per Capita Criterion Does Not Adequately Assess a State’s Capability To
           Respond to a Disaster ………………………………………………………………………………………..5

           Conclusion .................................................. …………………………………………………………8

           Recommendations ...................................... …………………………………………………………8

           Management Comments and OIG Analysis …………………………………………………………8

Appendices
           Appendix A:        Objectives, Scope, and Methodology.............................................. 11 

           Appendix B:        Management Comments to the Draft Report ................................. 12 

           Appendix C:        Major Contributors to this Report................................................... 17 

           Appendix D:        Report Distribution.......................................................................... 18 


Abbreviations
     CFR                   Code of Federal Regulations
     CPI                   Consumer Price Index
     DHS                   Department of Homeland Security
     FEMA                  Federal Emergency Management Agency
     GAO                   Government Accountability Office
     JFO                   Joint Field Office
     OIG                   Office of Inspector General
     PDA                   Preliminary Damage Assessment
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Preliminary Damage Assessment is an important part of the disaster declaration
   process because it is a factor in determining whether an event will become a federally
   declared disaster. The Federal Emergency Management Agency (FEMA) uses the
   Preliminary Damage Assessment process as a mechanism “to determine the impact and
   magnitude of damage [caused by a disaster], and the resulting unmet needs of
   individuals, businesses, the public sector, and the community as a whole.” 1

   The process contains two types of assessments, Individual Assistance and Public
   Assistance. This report focuses on the Public Assistance assessment. Preliminary
   Damage Assessments are performed as soon as possible after a disaster strikes, and as a
   result the process has several challenges. Damaged areas may be inaccessible, and
   ownership or insurance coverage data on damaged infrastructure may not be
   immediately available. In addition, once the assessment teams reach the statewide per
   capita indicator, the process often comes to a halt. These factors hamper the ability to
   determine the magnitude and economic impact of a disaster.

   Since 1986, FEMA has used an outdated per capita amount as an indicator that a
   disaster might warrant Federal assistance. The agency selected the per capita amount
   of $1 based on the national per capita income; it did not adjust the amount annually for
   the changes in per capita income, but decided to begin adjusting the amount for
   inflation in 1999. If the agency had continuously updated the indicator for changes in
   economic conditions, many recent disasters would not have met the financial statewide
   per capita indicator for Federal assistance. In addition, there may be a better indicator
   based on a State’s need for assistance than the current financial statewide per capita
   indicators, such as changes in per capita income or the Consumer Price Index.

   Given the Federal Government’s current economic and budgetary constraints, we
   recommend that FEMA revise the Public Assistance Preliminary Damage Assessment
   process to estimate a disaster’s magnitude and economic impact more realistically.
   Furthermore, the agency should reassess the criteria used to measure a State’s capacity
   to respond to a disaster to better reflect changing economic conditions. The agency
   also should determine whether other Federal data measures would provide a better
   assessment of a State’s response capacity.




   1
       44 CFR § 206.33.


www.oig.dhs.gov                                1                                       OIG-12-79
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   Code of Federal Regulations (CFR) Title 44, Section 206, establishes the process that
   FEMA uses for States to request a presidential disaster declaration and provides a
   mechanism for determining the magnitude and economic impact of the damage and the
   resulting unmet needs of individuals, businesses, and the public sector.

   FEMA’s Preliminary Damage Assessment (PDA) process contains two types of
   assessments, Individual Assistance and Public Assistance. This report focuses on the
   Public Assistance PDA assessment. The process starts when a Governor requests a joint
   FEMA-State PDA from the FEMA regional office to determine whether a disaster or
   emergency is beyond the local and State governments’ response and recovery
   capabilities. This process is normally completed before the Governor submits a request
   for assistance; following a severe or catastrophic event, a Governor may request Federal
   assistance before the PDA is completed. Once a Governor’s request for assistance is
   received, FEMA prepares a recommendation letter to the President. The letter is based
   on the PDA assessment, localized impacts, insurance coverage in force, hazard
   mitigation, recent multiple disasters, and programs of other Federal agencies.

   The PDA teams are composed of FEMA, State, and local emergency management
   representatives. Teams interview applicants and survey disaster damage firsthand to
   estimate the potential costs of Public Assistance emergency and permanent work.
   Initial damage estimates in the PDA include the extent, cost, and types of damage to
   facilities and infrastructure, including emergency costs incurred by the State and local
   governments. The PDA teams’ findings are compiled into an overall Governor’s Request
   for Disaster Assistance. The Governor’s request includes the types of damage or
   emergency costs incurred by the units of government; the impact on critical facilities
   such as public utilities, individuals, and businesses; the number of people displaced; and
   the threat to health and safety caused by the event. FEMA officials use this request to
   recommend to the President whether a disaster event is eligible for a presidential
   disaster declaration.




www.oig.dhs.gov                                2                                       OIG-12-79
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Review

           Thoroughness of the Preliminary Damage Assessment Process

           The current PDA process has a number of shortfalls. 44 CFR §206.33 establishes
           the PDA as a mechanism for determining the magnitude and economic impact of
           the damage and the resulting unmet needs of individuals, businesses, and the
           public sector. This regulation requires FEMA to perform a PDA, but it does not
           specify how the PDA is to be conducted. FEMA and State officials said, and we
           observed, that PDA teams stop the PDA site assessment once the statewide per
           capita indicator is met. However, stopping a PDA when the statewide per capita
           indicator is met may breach Section 320 of the Robert T. Stafford Disaster Relief
           and Emergency Assistance Act (Stafford Act), which requires that no geographic
           area be precluded from receiving assistance solely by virtue of an arithmetic
           formula or sliding scale based on income or population.

           FEMA’s current PDA process has the State identify damages, which the PDA
           teams assess. FEMA officials said that States are aware that once a PDA team
           assesses disaster damages that equal or slightly exceed the statewide per capita
           indicator, FEMA will recommend that the President declare a disaster.

           During our review, we attended a PDA site assessment where the PDA team
           verified disaster damages until the indicator was reached, and the process was
           stopped as a result. We inquired about the PDAs during our deployments to the
           Joint Field Offices (JFOs) in New York, New Jersey, and Vermont following
           Hurricane Irene. At one of the JFOs, staff said that the State PDA was done by
           three individuals who sat down and assigned costs to affected counties until
           indicators were met. They said that the dollar amounts were not necessarily a
           true representation of the total damage. At another JFO, staff said that
           Hurricane Irene was declared a disaster before the PDA was completed. The
           PDA process was conducted for 3 days after the disaster was declared, and did
           not cover all damages. Since the damage was significant, FEMA officials said that
           it was difficult to make accurate estimates. The estimates were made using
           various methods, including flyovers, and were stopped once indicators were
           met.

           We also reviewed the PDA estimates for declared disasters in 2009 and 2010 to
           determine whether our observations of PDAs for Hurricane Irene were unique to
           this disaster. Figure 1 shows that 57% of the PDA estimates did not exceed the
           disaster indicator by more than 200%. This adds validity to the interviews and


www.oig.dhs.gov                                3                                      OIG-12-79
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           observations noting that the PDA teams often stop estimating disaster damages
           once the indicator is met or slightly exceeded.

           Figure 1. Comparison of the 2009 and 2010 PDAs to Indicators




           Factors Affecting the Accuracy of Preliminary Damage Assessment Estimates

           FEMA officials said that efforts to accurately assess disaster damages are
           affected by the accessibility of damaged areas, availability of records showing
           ownership, responsibilities of other Federal agencies, and the amount of
           insurance coverage held by State and local governments. The following are
           examples of how the unavailability of such information has affected the process:

           •	 PDA teams encounter situations where documentation or knowledgeable
              individuals are not available to determine which State, local, or other Federal
              agency is responsible for repairing and restoring a damaged area or
              structure. This presents challenges in determining eligibility of sites and
              could result in ineligible costs being included in PDA estimates. The project
              worksheets that are prepared after a disaster declaration are intended to
              address information limitations such as the resolution of responsibility of
              repairing or restoring damaged facilities.

           •	 PDA teams face challenges estimating insurance proceeds for eligible
              permanent work projects. If teams can obtain insurance documentation
              during the PDA, adjustments can be made, but insurance policies or
              applicable areas of coverage are not always available. Again, the project
              worksheets that are prepared subsequent to the disaster declarations are




www.oig.dhs.gov                                4	                                      OIG-12-79
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                  intended to address this lack of information regarding potential insurance
                  proceeds.

           •	 After a disaster, it is often not possible for a PDA team to access the damaged
              areas. In these cases, PDA teams use flyovers, satellite imagery, or other
              techniques to estimate damage costs. These techniques are effective in
              documenting what infrastructure was damaged (i.e., which building, bridge,
              or road). However, the details of the type of damage (e.g., foundation,
              electrical, plumbing) might be excluded from PDA estimates, thereby
              understating the cost to repair or replace the facility.

           Because of the emphasis on estimating disaster damages to meet the statewide
           per capita indicator and the factors that affect the PDA process, the process is
           not thorough or detailed enough to accurately assess the impact of a disaster or
           predict the funding levels needed for a successful recovery effort.

           Incomplete and Inaccurate PDA Effects on the Federal Government

           Given the government’s current economic and budgetary constraints, Congress
           directed FEMA in the Consolidated Appropriations Act, 2012 (Public Law 112-33,
           September 30, 2011) to provide a full accounting of its Disaster Relief Fund
           budget requirements for fiscal years 2012 and 2013. As PDAs are one of the
           initial factors used to recommend that the President make a disaster declaration,
           a more thorough and accurate PDA process would help implement this
           congressional mandate.

           State Per Capita Criterion Does Not Adequately Assess a State’s Capability
           To Respond to a Disaster

           The $1 inflation-adjusted State per capita amount that FEMA uses to measure
           whether a disaster is beyond the capacity of State and local governments has not
           kept up with inflation, and is not necessarily a realistic measure of a State’s true
           ability to respond to a disaster.

           According to 44 CFR §206.48, when reviewing a Governor's request for major
           disaster assistance under the Stafford Act, FEMA reviews several factors to make
           a recommendation to the President as to whether assistance is warranted,
           including the estimated cost of the assistance. Therefore, it is important that the
           criteria used to develop the estimates be updated and that an accurate measure
           of a State’s capacity to handle disasters be established.



www.oig.dhs.gov                                   5	                                      OIG-12-79
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Since 1986, FEMA has used a per capita amount as an indicator that a disaster
           might warrant Federal assistance. FEMA selected the per capita amount of $1
           based on national per capita income, which in 1983 was $11,667. However,
           FEMA did not adjust the amount annually for changes in national per capita
           income. In January 1999, FEMA implemented the $1 per capita amount but
           disconnected it from per capita income, and decided to start adjusting the
           amount for changes in Consumer Price Index (CPI). In September 1999, FEMA
           issued a final rule on factors considered when evaluating a Governor’s request
           for a major disaster declaration under the Stafford Act. In the Federal Register
           notice, FEMA acknowledged that a straight per capita dollar figure “may not be
           the best measurement of a state’s capability” to respond to a disaster, but
           considered it a “simple, clear, consistent, and longstanding means of evaluating
           the size of a disaster relative to the size of [a state].” FEMA also acknowledged
           that “it is time to begin to peg this indicator to inflation since it has been in use
           without change for the past fifteen years.”

           Effect of Current Statewide Per Capita Indicators

           Beginning in 1999, FEMA agreed to adjust the statewide per capita indicator
           amount annually based on the CPI. However, FEMA did not adjust the per capita
           indicator amount for changes in income or purchasing power from 1983 to 1999.
           By not adjusting the per capita amount for 16 years, FEMA’s calculations did not
           take into account a 142% percent increase in per capita income and a 65%
           percent increase in the CPI.

           If FEMA had adjusted the $1 per capita statewide per capita indicator by the CPI
           or by the changes in the national per capita income since 1983, a significant
           number of 2009 and 2010 PDAs would not have exceeded the States’ indicator.
           Figure 2 compares the number of disasters that had PDAs exceeding the
           indicator using three different criteria:

           •	 Using the $1 per capita amount adjusted by the CPI starting in 1999 (current
              method);

           •	 Using the $1 per capita amount adjusted by the CPI starting in 1983; and

           •	 Using the $1 national per capita income indicator adjusted for growth in
              income since 1983.




www.oig.dhs.gov                                  6	                                         OIG-12-79
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Figure 2. Comparison of 2009 and 2010 Disasters to Indicator*





           * This chart excludes two disasters in which PDA estimates were not performed.

           The current process, adjusting the statewide per capita indicator by the CPI only
           since 1999, resulted in nearly all of the disasters having PDAs that exceeded the
           States’ indicator. More than 36% of the PDAs would not have exceeded the
           States’ indicators if the $1 per capita amount had been indexed back to the
           change in the CPI since 1983. If FEMA had updated its 1983 national per capita
           income of $1 to reflect 2009 and 2010 national per capita income, more than
           56% of PDAs would not have exceeded the indicator.

           FEMA Needs a Better Way To Assess a State’s Ability To Respond to a Disaster

           In a 2001 report on the need to improve the criteria used to declare major
           disasters, the Government Accountability Office (GAO) criticized FEMA’s use of
           explicit financial indicators as a measure of a State’s ability to respond effectively
           to a disaster. GAO reported that a State’s capacity to respond to a disaster using
           state resources depends on several factors, the most important of which is the
           underlying strength of the State’s tax base and whether that base is expanding
           or declining. GAO argued that a State’s tax base represents the resource base
           against which it can draw to fund its public services needs, including repairs after
           a disaster. In addition, GAO pointed out that an expanding economy also
           provides more potential revenues than one that is flat or in decline. GAO
           recommended that FEMA develop objective and specific criteria to evaluate a
           State’s ability to respond to a disaster, such as a State’s total taxable resources.
           FEMA has not implemented GAO’s recommendation. Given the many demands


www.oig.dhs.gov                                      7                                      OIG-12-79
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           for Federal resources, the need for FEMA to be able to objectively assess the
           ability of State and local governments to fund disaster-related expenses has
           never been greater.

           Conclusion

           The PDA process does not provide a thorough, accurate assessment of a State’s
           economic capacity to respond to and recover from a disaster. To enhance the
           PDA process, FEMA should improve the Public Assistance PDA to estimate more
           accurately the magnitude and economic impact of a disaster. FEMA should
           reevaluate the State per capita criteria used to measure a State’s capacity to
           respond to a disaster. Furthermore, FEMA should determine whether other
           Federal data measures could better evaluate a State’s capacity to respond to
           disasters.

           Recommendations

           We recommend that the Assistant Administrator, Recovery Directorate:

           Recommendation #1: Improve the Public Assistance Preliminary Damage
           Assessment to estimate more accurately the magnitude and economic impact of
           a disaster.

           Recommendation #2: Update the current statewide per capita indicator criteria
           to better reflect current economic conditions.

           Recommendation #3: Evaluate other Federal data source measures to
           determine whether they provide a better indicator of a State’s capacity to
           respond to a disaster and, if appropriate, replace the current statewide per
           capita indicator measurement.

           Management Comments and OIG Analysis

           We reviewed FEMA’s response to our draft report and accepted the technical
           comment to change “threshold” to “statewide per capita indicator.” FEMA
           concurred with Recommendation #1, but did not concur with Recommendations
           #2 and #3. With regard to Recommendation #1, we acknowledge that FEMA has
           established a training course to improve the quality and consistency of PDAs. In
           addition, FEMA is in the process of pursuing data collection tools. However, we
           suggest that FEMA ensure that the training course addresses the issues
           discussed in this report and that the data collection tools that FEMA acquires be


www.oig.dhs.gov                                8                                          OIG-12-79
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           able to estimate more accurately the impact of the disaster. We also agree with
           FEMA that the PDA process does not establish a final level of eligible funding in a
           declared event; however, it is a factor in establishing the need for Federal
           disaster assistance. As such, it is FEMA’s responsibility to review all State-
           documented damage assessments to ensure that the assessments are as
           accurate and complete as possible prior to the issuance of the presidential
           declaration. In this regard, FEMA should ensure that State and local officials
           provide up-to-date information prior to the joint FEMA/State PDA. We will
           determine the status of this recommendation once we receive the detailed
           corrective action plan in FEMA’s 90-day letter.

           FEMA did not concur with Recommendation #2. We recommended that FEMA
           update the current State per capita indicator to better reflect current economic
           conditions. FEMA stated that its September 1999 rule, which includes annual
           adjustments to the CPI for all Urban Consumers, provides a formal, clear, and
           publicly articulated criterion that applies to all requests for major disaster
           declarations. FEMA did not believe that it was reasonable to retroactively apply
           an adjustment that could result in more than one-third of currently declared
           incidents not being declared major disasters. We did not recommend the
           retroactive adjustment on previously declared disasters. Such a
           recommendation would be inconsistent with the basis of our first
           recommendation that PDAs are not as thorough as they should be because some
           States are aware that, once a PDA team assesses disaster damages that equal or
           slightly exceed the State per capita indicator, FEMA will recommend that the
           President declare a disaster. We used that analysis to illustrate the impact of not
           indexing FEMA’s indicator for more than a dozen years. We do not agree that
           the current statewide per capita indicator used by FEMA reflects a State’s
           capacity to respond to and recover from a disaster. The Stafford Act requires
           that a Governor’s request for a major disaster declaration be based on a finding
           that the disaster is of such severity and magnitude that an effective response is
           beyond the capabilities of the State. We believe this issue is best addressed in
           Recommendation #3. However, in the interim, it is our belief that FEMA should
           update the State per capita indicator by comparing current economic factors
           with those dating back to when FEMA first started to use the index. FEMA is a
           steward of Federal assistance funds and should develop measures that ensure
           that funds are spent effectively and efficiently. In addition, GAO made a similar
           recommendation in reports issued in 2001 and 2012. We will determine the
           status of this recommendation once we receive the detailed corrective action
           plan in FEMA’s 90-day letter.




www.oig.dhs.gov                                 9                                       OIG-12-79
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           FEMA did not concur with Recommendation #3. We recommended that FEMA
           evaluate other Federal data source measures to determine whether they provide
           a better indicator of a State’s capacity to respond to a disaster and, if
           appropriate, replace the current measurement. FEMA believes that its current
           State per capita indicator is consistent with the intent of the Stafford Act and
           that the arithmetic formula used to develop the statewide indicators does not
           violate Section 320 of the Stafford Act. We disagree with this assessment.
           FEMA’s per capita arithmetic formula has no direct relationship to the Stafford
           Act’s requirement that FEMA measure whether the severity and magnitude of a
           disaster is beyond the capability of the State and its local governments to
           respond effectively. For example, a per capita indicator does not take into
           account the unique circumstances that exist in a State like California, that has a
           large population but also has significant financial difficulties. Thus, we stand by
           the recommendation and believe that FEMA should do this evaluation to
           determine whether it’s State’s capacity to respond. In addition, GAO made a
           similar recommendation in reports issued in 2001 and in 2012. We will
           determine the status of this recommendation once we receive the detailed
           corrective action plan in FEMA’s 90-day letter.




www.oig.dhs.gov                                10                                       OIG-12-79
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology

   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to assess the thoroughness and accuracy of FEMA’s
   Public Assistance major disaster declaration PDAs from fiscal years 2009 through 2010.
   We compared these PDAs with FEMA’s statewide per capita indicator, based on
   guidance issued annually in the Federal Register.

   We interviewed FEMA Public Assistance Senior Management officials and Disaster
   Comptrollers from headquarters, Region III, Region V, and Region IX. We performed
   fieldwork in Washington, DC, and Oakland, CA. We observed Region III in the
   formulation of the Maryland PDA for Hurricane Irene. In addition, we reviewed current
   PDA policies, processes, and procedures; reviewed applicable Federal regulations and
   FEMA guidelines; and performed other procedures considered necessary to accomplish
   our audit objective. We did not assess the adequacy of the internal controls applicable
   to PDA activities because it was not necessary to accomplish our audit objective.
   However, we did gain an understanding of the how the PDA process affects the
   accounting for disaster-related costs.

   We conducted this performance audit between July 2011 and November 2011 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               11                                      OIG-12-79
                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security




   Appendix B
   Management Comments to the Draft Report




www.oig.dhs.gov                  12                    OIG-12-79
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              activi ty and proh'Tams n:g,mling olher FC41eral assistance. Tht: ohjective of the PDA is to provide
              information on the impacts of an incident for the consideration of these factors in making a
              recommendation to the President as to whether Federal assistance is warranted. The PDA is not meant
              or designed to serve as an estimate of final program expenditures for budgetary purposes.

              Preliminary damage assessments are conducted jointly, with the participation of FEMA, the
              State, atfected local jurisdictions, and other Federal agencies . PDAs are requested by the State
              and are conducted according to a schedule coordinated by the State based on availability oflocal
              jurisdictions. The results ofth!! joint PDA <Ire submitted by the Governor in support of his or her
              request for a major disaster declaration.

              As indicated in the OIG report, there are factors that may limit the information that can be
              collected as part of a PDA. This may include a PDA team's inability to access certain areas due
              to the impact of the incident and the lack of knowledgeable local personnel or documentation,
              such as insurance coverage, which may not be immediately available after a disaster. All or
              some of these factors may limit the ability to collect detailed infonnation on affected facilities
              and result in POA informatioTl that dues nutl:OITdate pret:isely to ultimate program funding
              levels once full infonnatiol:1 is collected and reviewed, and eligibility detenninations are madc.
              Again, the purpose of the PDA is not to serve as a determination on "final" elJgible funding, but
              to estimate costs to assess whether a major di saster declaration is warranted.

              The OIG also indicated that the review found in certain instances the PDA assessments ceased
              once the statewide per capita indicator had been met Two importWlt considerations balance this
              assertion. First, a State has responsibility for all impacted areas and local officials in all
              jurisdictions have an interest in ensuring damage in their communities is fully assessed and
              documented. Second, decisions on major disaster declaration requests must be made
              expeditiously in order to authorize Federal assistance that may be necessary to meet immediate
              needs of disaster survivors and initiate the recovery of impacted communities. Once again, the
              PDA provides informa tion needed to detennine whether a major disaster declaration should be
              made. More detailed and precise funding levels will result later in the process when eligible
              scopes of work are determined based on complete intormation on the disaster impacts.

              The DIG cites Congressional requirements in the Consolidated Appropriations Act of2012 for a
              fu ll accounting of the Disaster Relief Fund (DRF) budget needs for fiscal years 2.012 and 2013 .
              FBMA is actively pursuing these requirements and has implemented a number of initiatives to
              improve the management of the DRF. PDAs may serve as an initial estimate of funding in a
              major disaster; however, PDAs are quit:kly superseded by refineu estimates as more detailed
              information becomes available from the affected applicants. Sound management of the DRF is
              being achieved through the initiatives FBMA is putting in place to improve disaster budgeting
              and program management once a major disaster declaration has been made.

              As a technical comment, the DIG report refers to the statewide per capita impact indicator as a
              "threshold". This is inaccurate, as the per capita figurc is not a threshold, but is an "indicator" of
              the estim ated cost of assistance, which remains one of the factors considered by FEMA v.:hen
              evaluating a request for a mHjor disHster declaration (44 CPR 206.48(a)(1».



                                                                2




www.oig.dhs.gov                                               13                                                       OIG-12-79
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




              Tbe OIG includes three recommendations in the draft report. FEMA 's response to the proposed
              recommendations follows .

              Recommendation #1: Improve the Public Assistance Preliminary Damage Asses51uent to more
              accurately estimate the magnitude and economic impact of a disaster,

              FEMA com.:urs with this recommendation. FEMA endeavors to support a joint FEMA-Stale-local PA
              PDA process that provides the most accurate and complete assessment of an incident's impact as
              possible. As noted by the OIG, the post-disaster environment may be a limiting factor in the completion
              of a PDA. At times, certain areas may be inaccessib le due to the impact of the incident. Collection of
              infnnnalion must also he hal anced wi th the need lo complete a PDA expeditiously ill order fix a
              determination to be made on thc authorization of Federal assistance that may be necessary to meet
              critical needs of communities affected by the incident.

              In onler tu pnJvide guidam.:e and training un the PA pnA proce~~, FRMA devdllped th e «Pn:liminary
              Damage Assessment" course in 2009. This training course specific to PA PDAs was developed to
              improve the quality and consistency ofPA PDAs. The class provides instruction on worldng with State
              and local governments to perform damage assessments, accurately document damage, fannulate sound
              cost est.im ates, and t:Tlsun:: that appropriate eligibili ty is."ut:,.o; are cIlTl si dered fur the a~sessmt:Tlt u f the
              work scope and overall project costs. The course is taught on a regular basis, and often includes
              participation by State representatives. FEMA also provides States with copies of the course for training
              of local government personnel.

              Further, FEMA is pursuing data collection tools that will provide enhanced capabilities to pcrfoml
              PDAs and record infonnation in an efficient and consistent manner. FEMA is currently assessing the
              best available options for development of such a tool fo r PA PDAs, based on previous efforts to explore
              devel opment I,f such a tool and in li ght of currently re fin ed tech nologies.

              The PUA process provides FEMA officials the information that they would consider in evaluating
              whether a major disaster declaration is warranted. The PDA process does not establish a final level of
              e1i gihle funding in a declart::d evt::nL FRMA is im plem enling olher initiatives to impmve di sasler
              b udgeting and program management once a declaration has been made that will enhance f-EMA's ability
              to manage and budget for expenditures from the Disaster Relief Fund. This includes improved monthly
              budgeting in di saster operations, and better financial management of grant funding tlrrough enhanced
              quarterly reporting on proj ects through the Statcs as grantces f(]f the Puhlic Assistance Program.


              Recommendation #2 : Update the current state per capita threshold criteria to better reflect
              current economic conditions.

              FEMA does not concur with this recommendation pertaming to the per capita indicators . In
              1999, FEMA issued a regulation outlining the factors con sidered when evaluating a Governor' s
              request for a major disaster declaration. The proposed mle, published on January 26, 1999,
              stated that the factors represent, "a simple, clear and reasonable means to measure the severity,
              magnitude and impact of a disaster, whi le at the same time ensure that the President can respond
              quickly and effectively to a Governor's request for assistance." The final regulation, published


                                                                      3




www.oig.dhs.gov                                                     14                                                                OIG-12-79
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              on September 1, 1999, provided tormal, clear and publicly articulated criteria that would be
              applied to all requests for major disaster declarations. In this way, all parties, Federal, State and
              local, are now infonned of and have an lmderstal1ding of the criteria for the consideration of
              requests for assistance. It is important to reiterate that the rcgulation established factors for
              consideration ohequests, and did not establish "thresholds", as stated by the OrG. Further, the
              factors pertain to FEMA making a recommendation to the President on wbether Federal
              assistance is warranted , while the President maintains final discretion on the dec1amtion of a
              major di saster.

              FEMA initially proposed establishing fonnal major disaster declaration criteria in 1986. The
              notice in the Federal Regisler srated that, "Based on a per capita income of$11,687 it appears
              reasonable that a State would be capable of providing S 1.00 for each resident of that State to
              cover the cost of State efforts to alleviate the damage which rcsults from a disaster situation .
              Based on $1.00 per capita, the capability indicators developed for States correlate closely to
              about 0.1 of one percent of the estimated General Fund expenditures by States. Using $1.00 per
              capita multiplied times lhe population of a State and then multiplying that figu re by the ratio of a
              Statc's per capita pcrsonal income to the oationw nverage per capita personal income (to provide
              an adjustment for State that have per capita incomes above or below the National average), an
              objective indicator, which can be usee! in the declararion process will be developed for eaeh
              State." This proposal was not adopted.

              In 1998, FEMA issued a notice in .the Federal Register proposing to adjust the $1.00 per capita
              figure to $1.51 based on inflation since 1986. FEMA received comments from the public
              expressing concern about adjusting the indicator for inflation retroactively to 1986. FEMA did
              not implement this proposal.

              FEMA issued a proposed rule on January 26,1999 , to formally establish the factors considered
              when evaluating a Governor's request for a major disaster declaration. The rule included a
              statewide indicator of $1.00 per capita for the evaluation of the estimated cost of Public
              Assistance. The final rule, publi shed on September 1, 1999, did not adjust the per capita
              indicator for inflation retroactively. Rather, the rule did establish that the statewide per capita
              indicator would he adjusted annuall y from that point forward based on the Consumer Price Index
              for all Urban Consumers. The statewide per capita indicator currently in use (S1.35) is based on
              the indicator established in 1999 and reflects annual adjustments based on the Consumer Price
              Index (CPI) since the regulation went into effect.

              Based on the DIG's findings, if the S1.00 pcr capita figu rc had becn adjusted retroactively based
              on CPI since 1983, over 36% of major disasters declared in 2009 and 2010 would not have
              reached the statewide per capita indicator. FEMA does not believe that it is reasonable to
              relrnacti vely apply such an adjustment th at could result in over one third of currently declared
              incidents not being declared major disasters. FEMA is fully cognizant of currcnt constraints on
              the Federal budget, and is implementing measures to closely manage the Disaster Relief Fund
              (DRF) in particular. However: many State and local govenunents are likewise experiencing
              significant budgetary (.;onsLraints, which onen makes Federal disaster assistance dollars all the
              more important to communities recovering from the impact of major disasters.



                                                                4




www.oig.dhs.gov                                                15                                                     OIG-12-79
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              Recommendation #3: K"a luate other federal data source measures to dctermine whether the}'
              provide a better indicator of a state's capacity to respond to a disaster and, if appropriate, replace
              t.he current threshold measuremcnt.

              FEMA does not concur. with this recommendation . FEMA reviewed other sources of data in 200 I for
              potential use as major disaster declaration criteria and chose not to propose changes to tht! current
              factors outlined in FEMA regulations . FEMA does not plan at this time to propose changes to the
              factors or indicators tor assessing requests tor the authorizati on of Public Assistance as part of a major
              disaster declaration.

              The CUlTent cliteria for di saster declarations, as outlined in FEMA regulations, are consistent with the
              intention of the Statlord Act, and the use ofthe Statewide indicator as one of the tactors tor
              consideration is not contrary to the Section 320 of the Stafford Act prohibiting the use of an arithmetic
              fonnu la as the sole basis for precluding assistance to any geographic area. FEMA believes, a<; stated in
              1999. that the current fac tors provide, "a simple, clear and reasonable means to measure the severity,
              magnitude and impact of a disaster, whi le at the same time ensure that the President can respond quickly
              and effectively to a Governor's request for assistance."

              Once again, thank you for the opportunity to comment on the draft rCJXlrt. Please fcel free to
              provide any comments/concerns to our Chief Audit Liaison , Mr. Brod Shetku, 202-646-1308.




                                                                5




www.oig.dhs.gov                                               16                                                            OIG-12-79
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Kaye McTighe, Director
   Nigel Gardner, Audit Manager
   Christine Alvarez, Auditor in Charge
   Nathaniel Nicholson, Auditor




www.oig.dhs.gov                             17                    OIG-12-79
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Associate Administrator, Response and Recovery
   Deputy Associate Administrator, Response and Recovery
   Assistant Administrator, Recovery
   FEMA Audit Liaison (Project Number 11-128-EMO-FEMA)

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress
   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 18                         OIG-12-79
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
